 
                       Department of Veterans Affairs

                              Office of Inspector General

 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 

               Review of the Veterans Health 

               Administration’s Use of Reverse 

                  Auction Acquisitions

 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Report No. 13-01408-294                                        September 26, 2014

                                VA Office of Inspector General 

                                   Washington, DC 20420

                       Acronyms and Abbreviations
 
    CO           Contracting Official
    eCMS         Electronic Contract Management System
    FAR          Federal Acquisition Regulation
    FSS          Federal Supply Schedule
    GSA          General Services Administration
    IFF          Industrial Funding Fee
    IFB          Invitation for Bid
    IGE          Independent Government Estimate
    LPTA         Lowest Price Technically Acceptable
    NCO          National Contract Office
    OAL          Office of Acquisition and Logistics
    OCR          Office of Contract Review
    OIG          Office of Inspector General
    PO           Purchase Order
    RA           Reverse Auction
    SOP          Standard Operating Procedures
    TAA          Trade Agreements Act
    VA           Department of Veterans Affairs
    VHA          Veterans Health Administration
 
 
 
 
 
 
 
 
 
 
 
           To Report Suspected Wrongdoing in VA Programs and Operations:

                               Telephone: 1-800-488-8244

                              E-Mail: vaoighotline@va.gov

           (Hotline Information: http://www.va.gov/oig/contacts/hotline.asp)

                                                            Contents 

Executive Summary ........................................................................................................... i 


Introduction ....................................................................................................................... 1 


Purpose ................................................................................................................................ 1 

Background ........................................................................................................................ 1 

Scope and Methodology ..................................................................................................... 4 


Results and Conclusion..................................................................................................... 5 


Objective 1: Determine whether VHA’s RA procurements are in compliance with 

published VA policies and procedures. ............................................................................... 5 

Objective 2: Determine whether VA’s mandatory and priority source requirements 

(specifically the FSS) are being followed when VHA uses RAs for procuring products 

and services. ........................................................................................................................ 7 

Objective 3: Determine how savings as a result of RAs are calculated and if reported 

savings represents a reliable measure of an RA’s success. ................................................. 9 

Objective 4: Determine total FSS procurements conducted with RAs and whether the use 

of RAs has a negative impact on the VA FSS Program.................................................... 14 

Objective 5: Determine whether VHA is procuring gray market items through RAs. .... 18 

Summary .......................................................................................................................... 19 


Recommendations ........................................................................................................... 21 


Exhibit A: Sample Categories and Selection Methods .................................................... 22 

Exhibit B: Summary of Report Statistics ......................................................................... 23 


Appendices

A.         Under Secretary for Health Comments and VHA Action Plan ............................. 25 

B.         Office of Inspector General Contact and Staff Acknowledgements ..................... 30 

C.         Report Distribution................................................................................................ 31              





	
 
                                                        Review of the Veterans Health Administration’s
                                                                  Use of Reverse Auction Acquisitions


                                  Executive Summary
    Introduction – Review Objectives
    The VA Office of Inspector General (OIG) Office of Contract Review, initiated a review
    of the Department of Veterans Affairs, Veterans Health Administration’s (VHA) use of
    reverse auctions (RA) to acquire products and services after receiving numerous
    complaints and concerns from the Federal Supply Schedule (FSS) contractors and House
    and Senate Committee members concerning the appropriateness of VHA’s use of RAs.
    Our review focused on RAs conducted under VHA’s purchase order (PO) with FedBid.
    On November 24, 2010, VHA issued a PO against FedBid’s General Services
    Administration’s (GSA) contract GS-35F-0752R to provided Electronic Commerce
    Services (Reverse Auctions) to VHA. This report presents our findings and makes
    recommendations for improvements in the use of RAs, consistent with procurement
    policies and procedures. In order to perform our review, we developed the following five
    objectives:

       1.	 Determine whether VHA’s RA procurements are in compliance with published
           VA policies and procedures.

       2.	 Determine whether VA’s mandatory and priority source requirements,
           (specifically the FSS) are being followed when VHA uses RAs for procuring
           products and services.
 
       3.	 Determine how savings as a result of RAs are calculated and if reported savings
           represent a reliable measure of an RA’s success.
 
       4.	 Determine total FSS procurements conducted with RAs and whether the use of
           RAs has a negative impact on the VA FSS Program.
 
       5.	 Determine whether VHA is procuring gray market items through RAs.

    Results
    We reviewed VHA procurements using RAs for the period of October 1, 2011, through
    January 31, 2013, contract documentation in the Electronic Contract Management System
    (eCMS), as well as VA and VHA’s policies and procedures for using RAs. We also
    conducted interviews of VHA and FedBid employees and FSS contractors.

    Our review found that VA policy and the implementing VHA Standard Operating
    Procedure (SOP) describe specific documentation that COs must include in the contract
    files for each RA. However, the majority of RA contract files we reviewed had
    incomplete contract documentation, and only 16 of the 236 (6.78 percent) contract files
    reviewed met the documentation requirements of the VHA SOP. We concluded that VHA
    is not in compliance with VA policy and VHA’s SOP regarding determination of the


                              	
VA	Office	of	Inspector	General	                                                             Page	i	

 
                                                            Review of the Veterans Health Administration’s
                                                                      Use of Reverse Auction Acquisitions


    procurement method and RA contract file documentation. Also, we found that priority
    sources such as the FSS are not utilized as required by VA policy and VHA’s SOP for all
    RAs. Further, when RAs are used for FSS purchases, VHA is paying the Industrial
    Funding Fee (IFF) in addition to the FedBid RA fee when FedBid’s RA fee is not waived
    by FedBid. We found instances where the CO would identify an FSS source for the
    required products; however the Invitation for Bid (IFB) would subsequently be issued for
    open market bids. These situations occurred without any documentation in the contract
    file to justify the use of other than priority sources. In addition, if the awardee is an FSS
    vendor, these sales may be considered non-FSS sales which deprive the Government of
    the IFF.

    We found that the reported claimed savings, computed by subtracting the final award price
    from the target price, was not reliable in determining the success of using RAs for several
    reasons. First, although the target price set by the CO should be equal to the Independent
    Government Estimate (IGE) as stated in VA policy and the implementing VHA SOP, we
    found that the target price was not always equal to the IGE, and that the basis for the target
    price was often not documented within the contract file. Second, we found that the award
    price represented funds obligated at award and that many buys were not fully funded at the
    time of award, thereby inflating the reported savings. Lastly, we found that the target
    price could be changed by the CO during an active RA via a reposting of the IFB. Such
    changes were not always documented and justified within the eCMS contract file.

    We also determined that COs run the risk of acquiring gray market items through RAs,
    because sellers are only required to self-certify that they are authorized distributors of the
    procured items. We found VHA was procuring items from unauthorized distributors
    through the use of RAs.

    We briefed VHA Assistant Deputy Under Secretary for Health for Administrative
    Operations on October 24, 2013, with the preliminary findings of our review, and as a
    result VHA performed an internal review of RAs. Subsequent to this meeting, VHA took
    the following actions:

      	 On November 22, 2013, Head of Contracting Activity (HCA) directed the Service
         Area Office (SAO) Directors via email to suspend the use of all reverse auction tools
         until further notice.
      	 VHA published revision 01 to the VHA SOP for Commercial Supply and Services
         effective February 21, 2014. The revision documented the HCA’s temporary
         suspension of the use of any RA tool until further notice.
      	 The Task Order with FedBid for Reverse Auction Services was cancelled on
         April 23, 2014.
      	 On May 15, 2014, the Acting VHA Deputy Chief Procurement Officer issued a
         memorandum that implemented the following:
             o	 VHA Contracting Offices shall not utilize commercial vendors to provide
                 RA services.



                              	
VA	Office	of	Inspector	General	                                                                Page	ii	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions

             o	 VHA CO may use GSA’s reverse auction tool when the CO has determined
                that the use of Federal Supply Service (FSS) contracts is in the best interest
                of the Agency.
             o	 GSA’s RA tool is NOT mandatory but may be used at the discretion of the
                CO.
             o	 VHA COs are no longer required to document decisions not to use RAs in
                contract files.

    Recommendations
    We recommend that the Under Secretary for Health:

          1.	 Restrict the use of RAs to those procurements in which there is sufficient
              justification that it is in the best interest of the Government, particularly when
              the items or services to be procured are on existing FSS or other national
              contracts, including SEWP and other Government Wide Acquisition Contracts.

          2.	 Require assurance that all COs follow the contract file documentation
              requirements stated in Federal Acquisition Regulation (FAR) 4.8, VA’s
              Updated Policy and Procedures for Using Reverse Auctions dated
              April 3, 2012, and VHA SOP for Commercial Supply and Service
              Procurements dated May 1, 2012.

          3.	 Require that all variances between target price and awarded price be fully
              explained and documented in the contract file.

          4.	 Develop and implement a system of internal controls to ensure that the
              April 3, 2012, VA policy and the May 1, 2012, VHA SOP, and any revisions
              of those policies are being followed.

          5.	 Develop and implement a policy to ensure that all reported savings are
              independently reviewed and reconciled by an internal VHA review process that
              is external to the buying office. The policy should target RAs that result in
              significant savings to ensure that the award price does not reflect partial
              funding.

          6.	 Ensure the use of priority sources as detailed in VAAR 808.002 such as the
              FSS, regardless of whether or not RA is the procurement method. If the RA
              does not generate adequate competition from priority sources a different
              procurement strategy such as GSA’s e-Buy should be utilized to encourage
              adequate competition.

          7.	 Consider the use of GSA’s RA tool for FSS orders only when RA is
              determined to be the best procurement method, in order to avoid paying an RA
              fee in addition to the IFF.



                              	
VA	Office	of	Inspector	General	                                                              Page	iii	

 
                                                        Review of the Veterans Health Administration’s
                                                                  Use of Reverse Auction Acquisitions



          8.	 Use the NASA SEWP Quote request tool for SEWP orders against existing
              SEWP contracts, in order to avoid paying an RA fee in addition to the SEWP
              fee.

          9.	 Implement a procurement requirement for RAs that will ensure only
              authorized distributors of products are eligible to compete and be selected for
              award and that includes a penalty for making false representations.

          10. Change the May 1, 2012, VHA SOP to be consistent with the April 3, 2012,
              VA policy which it implements, and update the SOP in conjunction with the
              policy implemented in response to this report.

          11. Remove the language which mandates the use of RAs from the VHA SOP.

Agency Comments
    The Under Secretary for Health provided written responses to our findings and
    recommendations on August 22, 2014. As stated in the Under Secretary for Health’s
    memorandum (Appendix A), VHA concurs with all 11 of our recommendations, and
    provided an action plan for implementing each one.

    As a result of briefing VHA on October 24, 2013, VHA has already implemented their
    proposed actions for recommendations 1, 3, and 5 through 11. After reviewing the action
    plan we find the proposed actions for all recommendations to be adequate and responsive.

    Recommendations 1, 3, and 5 through 11 can be closed since VHA has already
    implemented acceptable actions for these recommendations. We will follow up on the
    implementation of the remaining planned actions until they are completed.




                                                 MICHAEL GRIVNOVICS 

                                                Director, FSS Division 

                                               Office of Contract Review





                              	
VA	Office	of	Inspector	General	                                                            Page	iv	

 
                                                           Review of the Veterans Health Administration’s
                                                                     Use of Reverse Auction Acquisitions



                                        Introduction 

 
    Purpose
    The VA Office of Inspector General (OIG) Office of Contract Review, initiated a review
    of the Department of Veterans Affairs (VA), Veterans Health Administration’s (VHA)
    use of reverse auctions (RA) through FedBid to acquire products and services after
    receiving complaints and concerns from the Federal Supply Schedule (FSS) contractors
    and House and Senate Committee members concerning the appropriateness of VHA’s use
    of RAs. Our review objectives included an assessment of (1) compliance with VA
    policies and procedures; (2) use of priority sources; (3) the impact of RAs on the FSS
    Program; (4) the transparency and accuracy of reported savings from the use of RAs;
    and (5) the potential risk of acquiring gray market products.
 
    Background
    VHA Purchase Order Award

    On November 24, 2010, VHA awarded Purchase Order (PO) VA101-C17138 under
    General Services Administration (GSA) Contract GS-35F-0752R with FedBid to perform
    Electronic Commerce Services – Reverse Auctions, to compete commodity supply and
    service acquisitions. The contract is an Indefinite Delivery/Indefinite Quantity (ID/IQ)
    contract with no obligation to use the service, and a minimum value of $1. The PO with
    FedBid does not specify any cost to VHA for using the service. FedBid receives
    compensation from VHA indirectly through a fee applied by FedBid to the line item bid
    price of each product or service for the bids selected for award as the result of a completed
    RA as detailed in FedBid’s published Terms of Use. The Terms of Use state “Unless
    otherwise agreed by FedBid and Buyer [CO], the resulting FedBid Fee for any Buy [RA]
    is included in the payment from the Buyer to the Selected Seller . . . as Selected Seller, it
    will remit to FedBid . . . all FedBid Fees by the payment due date.” The fee applied by
    FedBid is based on the Fee Structure outlined in their November 12, 2010, pricing
    quotation to VHA which states “FedBid’s 0-3% fee structure enables FedBid to adjust its
    fee downward to address situations in which the buyer has met its competition and other
    procurement goals through FedBid but the fee has caused the selected seller’s bid to
    exceed a target price based on an actual market research quote or official published
    contract price. In such cases FedBid reserves the right to reduce or remove its fee so that
    the award price will not exceed the target price.” In addition, FedBid has implemented a
    fee discount that restricts a fee from exceeding $10,000.

    On March 3, 2012, the Office of Acquisition and Logistics (OAL) imposed a moratorium
    on the use of RAs within VA. During the moratorium OAL performed a review of RA
    contract files in the Electronic Contract Management System (eCMS) and VA policies to
    determine if VHA was in compliance with Federal and VA Acquisition Regulations when
    conducting RAs. Subsequent to the review on April 3, 2012, OAL issued updated VA
    policies and procedures for using RAs and lifted the moratorium. On April 6, 2012, VHA

VA	Office	of	Inspector	General
                               	                                                              Page	1	

 
                                                         Review of the Veterans Health Administration’s
                                                                   Use of Reverse Auction Acquisitions


    issued a memorandum implementing the updated OAL policy within VHA.
    On May 1, 2012, VHA issued Standard Operating Procedures (SOP) for Commercial
    Supply and Service Procurement that implements the VA April 3, 2012, policy and
    supersedes the April 6, 2012, VHA memorandum. We briefed VHA Assistant Deputy
    Under Secretary for Health for Administrative Operations, on October 24, 2013, with the
    preliminary findings of our review, and as a result VHA performed an internal review of
    RAs. Afterward VHA published revision 01 to the VHA SOP for Commercial Supply
    and Services effective February 21, 2014. The revision temporarily suspended the use of
    any RA tool until further notice. On April 23, 2014, the Task Order with FedBid was
    cancelled, and on May 15, 2014, the Acting VHA Deputy Chief Procurement Officer
    issued a memorandum that implemented the following:

         VHA Contracting Offices shall not utilize commercial vendors to provide RA
          services.
         VHA CO may use GSA’s RA tool when the CO has determined that the use of
          Federal Supply Service (FSS) contracts is in the best interest of the Agency.
         GSA’s RA tool is NOT mandatory but may be used at the discretion of the CO.
         VHA COs are no longer required to document decisions not to use RAs in contract
          files.

    The VHA SOP set the policy, responsibilities, and procedures for commercial supply and
    service acquisitions to include the requirement that all “Supervisors, reviewers and
    contracting officials are trained and registered in VHA supported reverse auction
    programs, services, and systems.” The following language is included in the VHA SOP
    policy statement:

          It is mandatory to consider and use reverse auctions in the procurement
          strategy to compete for commercial supply and service acquisitions that
          exceed the micro-purchase threshold when the contracting official has
          determined that lowest price technically acceptable (LPTA) will be the award
          methodology.

    Further, the VHA SOP provides the following RA definition:

          A competitive negotiation in which prospective contractors [sellers] compete
          by offering prices for a specified period of time [auction open and close]
          within which they can lower their prices. The contract is awarded to both the
          responsive and responsible offeror whose price is lowest at the auction
          closing time.




VA	Office	of	Inspector	General
                               	                                                            Page	2	

 
                                                              Review of the Veterans Health Administration’s
                                                                        Use of Reverse Auction Acquisitions


    The VHA SOP requires Contracting Officials (COs) to complete the form at
    Attachment A, “VHA Determination for Priority Source and Procurement Strategy” for
    each purchase and maintain it in every eCMS file. This form documents the use or nonuse
    of priority sources and the CO’s rationale for not using an RA to procure the supply or
    service. Unlike the VHA SOP, the VA policy dated April 3, 2012, does not mandate the
    use of RAs, and instead states, “Reverse auctioning techniques can and should be used
    where appropriate.”

    The VHA SOP also includes the requirement “Reverse Auction Savings Minimum
    Documentation: Each award file shall be documented with the auditable savings realized
    through the use of reverse auction techniques (calculated by subtracting the final award
    price from the target price).”
    VHA’s RA Process

    When a determination is made to conduct an RA to procure a commercial supply or
    service, the VHA CO will create a solicitation to include a description of the required
    supplies or services, evaluation criteria, contract clauses, and other pertinent information.
    From the solicitation document, the CO will create an IFB to be posted on the FedBid RA
    tool. The portion of the IFB that is viewable to registered sellers (all RA participants must
    register with FedBid at no upfront cost) includes; bidding requirements, delivery and
    shipping information, description and quantity by line item product or service being
    procured, and attachments such as the solicitation. Information provided by the CO but
    not visible to sellers includes: a total target price based on the Independent Government
    Estimate (IGE), target price active or inactive option (selection of the active option results
    in notification as “lag” status to all sellers until bidding falls below the target price and the
    seller status is changed to “lead” for the seller with the lowest bid), list of suggested
    sellers, and the buyers contact information. Individual bid prices cannot be viewed by any
    of the sellers or vendor community. They are available to the CO for review.

    Once the IFB is entered into the FedBid RA tool and information is confirmed by the CO,
    the CO activates the IFB by posting what is now defined as the “buy.” Upon posting
    (opening) the buy, all registered users in the seller community identified by the IFB are
    notified. In addition to the registered users, FedBid may reach out to unregistered vendors
    they think have the potential to fulfill the request and meet the buy requirements. If the
    FedBid identified vendor wants to participate in the RA the vendor must first register with
    FedBid. All bids submitted are adjusted by FedBid to include the FedBid RA fee of 0 – 3
    percent.

    During the bidding process all inquiries from the sellers are posted for response from the
    CO on the FedBid Dashboard: Pending Questions Section. All questions and responses
    are documented and maintained by FedBid. If the CO does not respond to seller questions
    posted on the dashboard, FedBid does not provide answers on the dashboard either;
    however, sellers may ask FedBid questions through email or phone conversations. As the
    bidding continues, each seller is notified of their bid status of “lead” or “lag” in


VA	Office	of	Inspector	General
                               	                                                                 Page	3	

 
                                                           Review of the Veterans Health Administration’s
                                                                     Use of Reverse Auction Acquisitions


    comparison to other sellers’ bids, or an active target price. Based on circumstances that
    arise during the open bidding period, or after the period has expired, the CO has the option
    to extend the closing date or repost the buy. Circumstances for reposting a buy may
    include additional time needed to address request for clarification from sellers, changes in
    product or service required, and a need to increase competition by expanding the seller
    community. When the buy is closed, the CO reviews each bid in accordance with the
    stated evaluation criteria, bidding requirements, and buy terms and prepares a source
    selection decision document based on their review.

    Once the selection decision is made, and a bid is accepted, the seller is notified by FedBid
    and provided with the CO’s information. The CO will contract directly with the selected
    seller. The award is posted on the FedBid RA tool identifying the selected seller’s name
    and award price. Payment will be made to the selected seller for the total awarded price
    which includes the FedBid RA fee. FedBid also sends the selected seller an invoice for
    any fee amount owed to FedBid.

    Scope and Methodology
    To address the objectives of this review, we reviewed the Federal Acquisition Regulation
    (FAR), Veterans Affairs Acquisition Regulation (VAAR), VA policy and guidance
    regarding the use of RAs, contract files maintained in VA’s eCMS, RA documents
    maintained in the FedBid owned and operated database, and reported savings amounts.
    Our sample size consisted of 236 buys between October 1, 2011, and
    January 31, 2013. The sample represents RAs available to all registered sellers (open
    market) and those restricted to holders of GSA, VA FSS, or NASA’s Solutions for
    Enterprise-Wide Procurements (SEWP) contracts. See Exhibit A for the list of the
    different sample categories and sample selection methods.

    Our specific work steps included:

    	 Reviewing FAR, VAAR, and VA policy and guidance regarding the use of RAs.
    	 Discussions with VHA and FedBid representatives concerning the RA process
       from establishing IFBs, to award selection, and reporting savings.
    	 Discussions with FedBid representative concerning their fee structure.
    	 Discussion with FSS contract holders.
    	 Performing various tests on VHA’s                RAs      which      occurred      between
       October 1, 2011, and January 31, 2013.
    	 Reviewing reported savings information.
    	 Reviewing a sample of RA contract files in eCMS.
 



VA	Office	of	Inspector	General	
                              	                                                               Page	4	

 
                                                         Review of the Veterans Health Administration’s
                                                                   Use of Reverse Auction Acquisitions



                              Results and Conclusions 


    Objective 1: Determine whether VHA’s RA procurements are in
    compliance with published VA policies and procedures.

    The VHA SOP implementing the VA Updated Policy and Procedures for Using Reverse
    Auctions states:

          Contract documentation shall include at a minimum - the procurement
          requirements; an independent government cost estimate (IGE); market
          research results; a price reasonableness determination; vendor quotes or
          submissions that validate that competition occurred; brand name
          justifications (where applicable); and documentation that the vendor has met
          all contractor responsibility qualifications in accordance with FAR Part
          9.104-5 and VHA Responsibility Determination SOP. The price negotiation
          memorandum, savings documentation and price fair and reasonableness
          determination shall be located in S24 [contract file].

    In addition, the policy states, “Each award file shall be documented with the (auditable)
    savings realized through the use of reverse auction techniques as well as the reverse
    auction fee paid.”

    We reviewed the eCMS contract file for each of the 236 sample buys, and determined
    that only 16 of 236 contract files (6.78 percent) met the documentation criteria stated in
    the VA policy and implementing VHA SOP. Although our review period began in
    October 2011, prior to the issuance of the VA policy dated April 3, 2012, and
    implementing VHA SOP dated May 1, 2012, there was an effective SOP 160-10-01 dated
    June 1, 2010, which contained documentation instructions for eCMS files. In addition,
    FAR 4.8 provides guidance on proper contract file documentation as well.

    Lack of Market Research and IGE Documentation

    As required by VA policy and implementing VHA SOP in effect at the time of the RA, all
    contract files shall include an IGE and market research results. Despite these
    requirements, we found that 117 of the 236 contract files (49.58 percent) we reviewed did
    not contain an IGE, and 87 of the 236 contract files (36.86 percent) did not contain
    documented market research results. In addition to the lack of market research
    documentation, we identified files that included an assertion that the FedBid RA process
    represented market research. This assertion is improper as a seller community must be
    identified through market research prior to establishing the IFB.




VA	Office	of	Inspector	General
                               	                                                            Page	5	

 
                                                           Review of the Veterans Health Administration’s
                                                                     Use of Reverse Auction Acquisitions

    Lack of RA Documentation

    As required by VA policy and implementing VHA SOP, when using an RA, abstracts of
    sources and vendor quote documentation must be uploaded into the eCMS contract file.
    However, 35 of the 236 contract files we reviewed (14.83 percent), did not contain any
    documentation to indicate an RA was the method used for the procurement. In order to
    ensure these procurements were performed with an RA and that documentation existed,
    we obtained access to FedBid’s database where we validated the use of RAs and the
    existence of documents generated by the FedBid RA tool. Such RAs generated
    documents include: the initial posting, final bids from each seller, bid abstracts, reposting
    or closing date extension notifications, and a summary of questions to the CO from
    sellers. These RA generated documents are required to be included in the eCMS contract
    file for each RA.

    In addition, FedBid provides a copy of the selected seller’s invoice via email to the CO,
    which breaks out applicable fee from the total purchase price. VA policy and
    implementing VHA SOP states that “Contracting officials shall ensure each award file is
    documented with the (auditable) savings realized through the use of reverse auction
    techniques as well as the reverse auction fee paid or savings realized through negotiations
    if reverse auction was not used.” We reviewed 213 awarded sample buys to determine if
    the email of the selected seller’s invoice showing the FedBid RA fee was documented
    within the eCMS contract file as required by VA policy. We found that 182 of 213
    (85.45 percent) awarded sample buys did not contain any fee documentation or the
    auditable savings as required by the VHA SOP.

    Lack of Award Determination Documentation
    The VHA SOP implementing the VA policy states, “It is mandatory to consider and use
    reverse auctions in the procurement strategy to compete for supply and service
    acquisitions . . . when the contracting official has determined that lowest price technically
    acceptable (LPTA) will be the award methodology.” Based on this, we determined that
    all RA awards should be based on LPTA, and as such, awards should be made to the
    lowest bid unless a technical evaluation determines that the lowest bid does not meet the
    requirements of the procurement. In order to determine if awards were made based on
    LPTA, we reviewed all awarded sample RAs with multiple participating sellers, which
    were 120 of the 236 RAs sampled. We found 35 of the 120 (29.2 percent) sample RAs
    were awarded to a seller who did not bid the lowest price, and 15 of those RAs (12.5
    percent) did not contain an award determination document in the contract file to support
    making an award to the seller without the lowest price.

    Conclusion

    Compliance with RA policies and procedures is necessary to ensure the integrity of the
    RA process as well as compliance with procurement laws and regulations in general.
    During our review we found that the VA policy and implementing VHA SOP on the use
    of RAs were not followed. First, the lack of documentation to support the IGE which is
    the basis for the established target price puts in question the validity of reported savings.

VA	Office	of	Inspector	General
                               	                                                              Page	6	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions


    Second, the lack of market research draws into question the decision to use an RA as the
    most appropriate procurement method, and without market research the CO could not
    reasonably know which is the most appropriate seller community to identify when
    posting the IFB. For example, without market research a CO may establish an IFB to the
    open market community when the required products or services are available on an FSS
    contract. Third, the lack of any RA generated documentation in the contract file raises
    questions as to whether the RA was the procurement method used, the details of how the
    RA was performed, whether there was any cost savings, and how much of the FedBid RA
    fee was invoiced to the seller. Finally, an award to a seller with other than the LPTA bid,
    without justification documented in the contract file, also brings into question the
    integrity of the procurement.

    In the event VHA uses FedBid’s or any other RA tool in the future, we recommend
    ensuring that all COs follow the contract file documentation requirements stated in FAR
    4.8 and VA’s Updated Policy and Procedures for Using Reverse Auctions and VHA SOP
    for Commercial Supply and Service Procurements. Further, we recommend VHA
    develop and implement a system of internal controls to ensure that VA policy and VHA
    SOPs are being followed. Lastly, VAAR 801.690-7 Termination states that COs’
    warrants should be revoked under the circumstance “(7) Blatant disregard for adhering to
    acquisition regulations, policies and procedures.” Accordingly, we recommend revoking
    COs’ warrants if they consistently fail to follow procurement policy as outlined in VA’s
    Updated Policy and Procedures for Using Reverse Auctions and VHA SOP for
    Commercial Supply and Service Procurements.

    Objective 2: Determine whether VA’s mandatory and priority source
    requirements (specifically the FSS) are being followed when VHA uses
    RAs for procuring products and services.
    The VA’s Updated Policy and Procedures for Using Reverse Auctions dated
    April 3, 2012, and implementing VHA SOP dated May 1, 2012, state that, “Mandatory
    and priority sources, as provided in FAR Subpart 8.002 and VAAR Part 808.002, shall be
    used and may be used in conjunction with the reverse auction procurement method where
    appropriate.” VAAR 808.002 specifies a hierarchy of priority sources for supplies which
    must be followed by VA purchasing personnel:

          (2) A national committed use contract awarded by the VA National
          Acquisition Center . . .

          (3) Federal Supply Schedule contracts awarded by the VA National
          Acquisition Center in Federal Supply Classification (FSC) Groups 65 and 66
          shall be mandatory for use by VA . . . in the following descending order of
          priority:

           (i) Nationally awarded Blanket Purchase Agreements (BPAs), issued by the
           VA National Acquisition Center against Federal Supply Schedules.


VA	Office	of	Inspector	General
                               	                                                             Page	7	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions




           (ii) Multi-VISN, single-VISN, or locally awarded BPAs, issued by VISN,
           regional, or local VA contracting officers against Federal Supply
           Schedules.
           (iii) Federal Supply Schedules without BPAs.

          (4) Indefinite delivery indefinite quantity (IDIQ) contracts, awarded by
          VISN, regional, or local facility VA contracting officers, for supplies not
          covered by national committed use contracts or Federal Supply Schedule
          contracts . . . in the following descending order of priority:

           (i) VISN or regionally awarded contracts.
           (ii) Locally awarded contracts.

          (5) Open market purchases . . .

    The VA policy further states, “Warranted contracting officials are responsible for
    ensuring that a determination is completed and documented in the procurement file that
    mandatory and priority sources cannot meet their needs before they seek sources on the
    open market using reverse auction techniques.”

    FSS Priority Source Not Utilized As Required For All RAs

    Our total sample of 236 buys included 75 IFBs announced to the open market
    community. Our review of the contract files also disclosed 11 instances of the 75 open
    market RAs (14.67 percent) where the CO identified an FSS source through market
    research, created an IFB for FSS community, but subsequently received no bids, or too
    few bids. That IFB was subsequently reposted and made available to the open market
    community. Two files included inadequate open market justification; for example, one
    file included the assertion that FSS prices “were way too high.” That particular contract
    file does not include documentation which would allow a review of the FSS pricing in
    effect at the time to make a determination whether the awarded prices were in fact better
    than FSS pricing. We also reviewed a contract file that documented an IFB for the FSS
    community that was reposted as an IFB to the open market community at the request of a
    seller from the open market community. The request was to the CO, not FedBid.

    Determination to Use Other Than Priority Sources Not Documented

    We reviewed the 75 contract files for open market IFBs, to determine if these RAs had
    the proper documentation showing that mandatory and priority sources could not fulfill
    the requirement. We found that 58 of 75 (77.33 percent) contract files did not contain
    any document containing a justification for seeking sources other than priority sources as
    required by VA policy.




VA	Office	of	Inspector	General
                               	                                                             Page	8	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions


    Further, we identified 2 cases where the CO specified the FedBid RA tool as a priority
    source, which is inconsistent with the hierarchy of priority sources outlined in VAAR
    808.002. The VHA SOP states that, “It is mandatory to consider and use reverse auctions
    in the procurement strategy . . .” By mandating the use of RAs, COs are identifying the
    FedBid RA tool as a priority source. Further, the VHA SOP is to implement the VA
    policy dated April 3, 2012; however, the VA policy does not mandate the use of RAs, but
    rather states, “Reverse auctioning techniques can and should be used where appropriate.”
    The VA policy also suggests using GSA’s e-Buy web site when seeking quotations for an
    FSS purchase. By mandating the use of RAs, the VHA SOP is in direct violation of the
    VA policy, which provides for other alternatives than the use of RAs. The VHA SOP
    should be consistent with the VA policy, which it implements.

    Conclusion

    Use of priority sources is required as stated in FAR Subpart 8.002 and VAAR Part
    808.002. However, our review determined that justification for deviating from this
    requirement was not included in 58 of 75 (77.33 percent) contract files we reviewed, and
    certain contract files showed available priority sources, but the IFBs were posted to the
    open market. Because only registered sellers can respond to an IFB, use of RAs restricts
    the CO’s ability to comply with acquisition regulations, unless all priority sources are
    registered with FedBid. By mandating the use of the FedBid RA tool in the VHA SOP, it
    becomes difficult for COs to discern what is truly a “priority source” despite the guidance
    provided by the VAAR. This confusion was noted in a few instances by our review
    where COs identified the FedBid RA tool as a priority source which is an inappropriate
    application of acquisition regulations and VA policy. Accordingly, we recommend
    ensuring the use of priority sources such as the FSS, regardless of whether or not RA is
    the procurement method. If the proper utilization of an RA does not generate competition
    from priority sources a different procurement strategy such as GSA’s e-Buy to encourage
    competition must be considered. Finally, we recommend changing the VHA SOP to be
    consistent with the VA policy dated April 3, 2012, and remove the language which
    mandates the use of RAs.

    Objective 3: Determine how savings as a result of RAs are calculated and
    if reported savings represents a reliable measure of an RA’s success.
    The VA policy for RAs states:

          [E]ach [Head of Contracting Activity] HCA shall ensure that the savings
          realized through the use of the reverse auction technique are auditable and
          transparent, independent of any reverse auction service provider. HCAs shall
          ensure savings are captured, analyzed, available and reportable.




VA	Office	of	Inspector	General
                               	                                                             Page	9	

 
                                                           Review of the Veterans Health Administration’s
                                                                     Use of Reverse Auction Acquisitions


    VHA SOP implementing the VA policy specifies that, “each award file shall be
    documented with the auditable savings realized through the use of RA techniques
    (calculated by subtracting final award price from the target price).” The VHA SOP also
    provides a template for use by the CO to document the savings. The template includes
    four fields for documentation: “Target Price (Based on Market Research – FAR Part
    10)”; “Award Price (eCMS Award/RA Accepted Offer)”; “RA Savings,” and; “RA Fee.”

    Of the 236 IFBs included in our sample, 213 represent awarded buys. We evaluated the
    contract files of the 213 awarded buys against the criteria set forth in the VA policy and
    implementing VHA SOP. Of the 213 awards, 210 (98.59 percent) of the contract files
    contained no documentation to support the savings reported. We also reviewed reported
    cost savings provided via the FedBid RA reporting tool for all buys during our review
    period. At our request, FedBid provided an Excel spreadsheet that contained several
    elements of information to include target price, action obligation, and savings for buys
    during our review period. This data showed that the savings amount was calculated by
    subtracting the action obligation from the target price.

    Savings Calculation

    As stated in the VHA SOP, savings are calculated by subtracting the final award price
    from the target price and this calculation is required to be documented in the contract file.
    During our review, we identified several issues that significantly impacted the amount of
    savings actually realized when using this calculation to determine savings.

     Basis of Target Price Not Documented

    Our review of the contract files for the 213 awarded buys, disclosed that 129 (60.56
    percent) of these contract files did not document the basis (i.e. historical expense, market
    research, other quantitative method) for the target price which was the basis of the
    savings calculation. The lack of documentation for this crucial component of the savings
    calculation restricts VHA’s ability to support any savings claims associated with using
    RA for these procurements.

     Target Price Not Supported by IGE

    Our review of 213 awarded buys disclosed that 26 (12.21 percent) of the established
    target prices were not consistent with the IGE contained in the contract file. In addition,
    the contract files did not include documentation to justify the difference. These
    differences are significant because a target price that is higher than the IGE will result in
    claimed cost savings that may not exist. The table on the next page, identifies samples
    where target prices were not supported by the IGE:

 




VA	Office	of	Inspector	General
                               	                                                             Page	10	

 
                                                                      Review of the Veterans Health Administration’s
                                                                                Use of Reverse Auction Acquisitions


                      Table 1 – Samples with Differing Target Price and IGE

                                        Established
                      Sample No.                               IGE             Difference*
                                        Target Price
                            17             $200,000         $187,580                $12,420
                            18               10,861            10,807                     54
                            23              144,997           138,517                  6,480
                            43               93,000            94,975                (1,975)
                            45              159,630           114,630                45,000
                            49               86,136            85,600                    536
                            50               34,643            36,250                (1,607)
                            51            6,553,081         6,037,798               515,283
                            57               44,000            77,030              (33,030)
                            58              486,802           530,224              (43,422)
                            60              189,760           183,835                  5,925
                           121            1,000,000           106,000               894,000
                           122              995,000           217,172               777,828
                           131            1,886,959         1,932,000              (45,041)
                           136              337,245             3,372               333,873
                           138              568,116           598,080              (29,964)
                           150              838,391           782,891                55,500
                           152              180,000           191,250              (11,250)
                           153              200,000           208,401                (8,401)
                           173              107,640           236,483             (128,843)
                           183               10,100           101,370              (91,270)
                           185                 6,879           11,933                (5,054)
                           191              330,580           362,500              (31,920)
                           192                    10           41,917              (41,907)
                           202               16,792            15,031                  1,761
                           205               27,808            26,857                    951
    *Difference shows the direct impact on reported savings amount.

     Target Pricing For Repost Not Supported

    During an RA, COs may change certain details about a particular IFB by reposting the
    IFB. Such changes can include: extending the closing date, changing the desired quantity
    of supplies, changing the community of sellers the IFB targets (FSS sellers, open market
    sellers, etc.), or changing the target price. Of the 213 awarded sample buys reviewed, 154
    (72.3 percent) experienced at least one repost. Of the 154 reposted buys, 23 (14.94
    percent) were reposted with a different target price than the original posting, with no
    revised IGE or justification for the change in the eCMS contract file. Reported savings are
    based on the target price less the action obligation, but when the target price is changed via
    a repost without any justification, the resulting savings reported become questionable.
 


VA	Office	of	Inspector	General
                               	                                                                        Page	11	

 
                                                            Review of the Veterans Health Administration’s
                                                                      Use of Reverse Auction Acquisitions



     Partial Funding Not Considered in Savings Calculation

    Our review of the reported cost savings provided via the FedBid RA reporting tool for all
    buys during our review period and more specifically the 213 awarded sample buys
    disclosed a discrepancy in the method used to calculate savings. As stated in the VHA
    SOP, savings is calculated by subtracting final award price from the target price. The
    savings amount identified in the information provided by FedBid represents the target
    price less the amount identified as the action obligation. The target price includes the
    estimated total award price; whereas the action obligation represents the funding
    obligated at time of award. Because not all awards are fully funded in a single action, the
    savings amount reflected by the FedBid RA reporting tool is not accurate or reliable and
    is grossly overstated.

    Based on the information FedBid provided, 92 of the 213 awarded sample buys reported
    savings based on the difference between the target price and action obligation amount.
    Of these 92 awards, 22 (23.91 percent) were procurements with partially funded action
    obligations. Partial funding is not reflected in the reported savings numbers provided in
    the FedBid generated spreadsheet. We determined that target prices for RAs represented
    the full estimated value of procurements which spanned the length of several months or
    years; however, when an award was made, the resulting action obligation only partially
    funded the procurement. By calculating savings using a target price that represents the
    total estimated contract value, and an action obligation that only partially funds the total
    contract value, the savings reported as a result is largely inflated and not representative of
    any savings as a result of the RA.

    Table 2 on the next page, identifies the sample buys that represented partial funding at the
    time of award resulting in grossly overstated reported savings. The table illustrates how
    the reported savings were overstated due to using an estimated total contract value against
    partial funding. The overstated savings is not 100 percent accurate due to errors in target
    prices previously noted and there is insufficient documentation in the eCMS contract file
    to correct the target prices.
 




VA	Office	of	Inspector	General
                               	                                                              Page	12	

 
                                                           Review of the Veterans Health Administration’s
                                                                     Use of Reverse Auction Acquisitions


                     Table 2 – Overstated Savings Due to Partial Funding

                                  Action          Total Bid/
    Sample       Target                                             Reported           Overstated
                             Obligation/Initial    Award
      No.        Price                                               Savings            Savings
                                 Funding          Amount (a)
      A            B                 C                D              E=(B-C)            F=E-(B-D)
     118        $1,200,000             $92,355      $706,833          $1,107,645           $614,478
     119         6,925,295             372,834      1,864,168          6,552,461           1,491,334
     121         1,000,000             113,780        793,401            886,220             679,621
     122           995,000             127,178        991,926            867,822             864,748
     124           985,707             303,333        909,999            682,374             606,666
     125           810,000             162,000        810,000            648,000             648,000
     126           736,434             159,158        879,471            577,276             720,313
     127           624,855              66,966        334,832            557,889             267,866
     128           658,800             131,760        658,800            527,040             527,040
     130           473,330              67,100        335,500            406,230             268,400
     132           424,200              39,437        276,060            384,763             236,623
     133           403,750              39,256        495,638            364,494             456,382
     135           425,000              86,008        372,700            338,992             286,692
     137           380,000              69,775        378,832            310,225             309,057
     140           296,000              10,300        176,130            285,700             165,830
     143           310,000              59,740        308,970            250,260             249,230
     144           300,000              60,255        317,266            239,745             257,011
     147           250,000              20,600        100,977            229,400              80,377
     151           250,000              76,630        406,732            173,370             330,102
     152           180,000               8,288        207,202            171,712             198,914
     153           200,000              28,840        153,264            171,160             124,424
     155           180,000              27,000        135,000            153,000             108,000
                                                         Total       $15,885,778          $9,491,108

    (a) Represents the total contract value for the full period of performance including options.

    Based on discussions with VHA’s Deputy Chief Procurement Officer, the reported savings
    from the use of RAs is derived from the information provided by FedBid in the form of a
    weekly “Cruncher” report that provides a high level summary of various RA data to
    include savings. During our review, we found that VHA does not perform any review or
    independent verification of the savings amount reported by FedBid, as required by the VA
    policy and implementing VHA SOP. Had VHA performed a review of reported savings,
    the grossly overstated savings related to partial funding, would have been clearly evident.




VA	Office	of	Inspector	General
                               	                                                             Page	13	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions



    Conclusion

    VHA’s calculated savings methodology resulted in inaccurate and thus unreliable
    reported savings. Our review found that target prices were not supported in the contract
    file and could vary significantly from the IGE. The resulting savings in all procurements
    rely on the validity of the target price which should be based on a properly supported
    IGE. We also found that the effect of partial funding was not considered in the savings
    calculation. This resulted in the misrepresentation of significant savings being reported.
    Had the VHA independently reviewed the reported savings as required by VA policy and
    implementing VHA SOP, the deficiencies in the savings calculation would have been
    clearly evident.

    In the event VHA continues using FedBid’s or other RA tool, we recommend requiring
    that all variances between target price and awarded amount be fully explained and
    documented in the contract file. We also recommend implementing a policy to ensure that
    all reported savings are independently reviewed and reconciled by an internal VHA review
    process outside the buying office. Such a plan should target RAs that result in significant
    savings to ensure that the award price does not reflect partial funding.

    Objective 4: Determine total FSS procurements conducted with RAs and
    whether the use of RAs has a negative impact on the VA FSS Program.
    To determine what impact RAs may have on the VA FSS Program, we specifically
    included 87 IFBs in our sample which were available only to the FSS seller community
    as well as interviewed FSS contract holders who have experience with the VA RA
    process through the FedBid RA tool.

    FSS Priority Sourcing Deficiencies

    We determined that the most significant impact on the FSS Program and the FSS contract
    holder is the CO’s determination not to use priority sources as required by VA policy, or
    to not include documentation in the contract file that supports procurements from other
    than a priority source. In order for the CO to make a determination that a product or
    service is not available on an FSS contract, adequate market research must be performed.
    In accordance with VA policy and implementing VHA SOP the CO must limit the seller
    community to the FSS any time a product or service is available on an FSS contract. Our
    review of 236 sample contract files determined that 87 (36.86 percent) of the contract
    files did not contain any documented market research to support the seller community
    identified in the RA.

    FedBid requires all RA participants register with the website. FSS contract holders that
    choose not to register are precluded from submitting a bid on an active RA. Registration
    with FedBid or any other entity that conducts RAs is not a requirement of the FAR or the
    FSS contract. Thus requiring FSS vendors to register with FedBid to compete for awards
    made though an RA may be considered a contract violation by VA.


VA	Office	of	Inspector	General
                               	                                                            Page	14	

 
                                                         Review of the Veterans Health Administration’s
                                                                   Use of Reverse Auction Acquisitions


    During our review we identified IFBs that restricted bidding to the FSS community as a
    result of identifying FSS sources during market research. However, FSS contract holders
    did not bid on the RA and the buy was subsequently reposted to the open market seller
    community. Such reposts violate the priority source requirements, and result in open
    market awards for products or services offered on FSS contracts. If FSS vendors did not
    bid through the RA process, VHA purchasers should have used the purchasing processes
    mandated in FAR Part 8.4. It is possible that no vendors bid on the RA due to the
    potential FedBid fee.

    The VA invests significant resources in its FSS Program in order to streamline the
    procurement process. FSS vendors also expend significant resources to obtain and
    administer their FSS contracts. Under this program buyers have access to pre-negotiated
    contracts for supplies and services. Prices negotiated under the FSS Program are
    determined to be fair and reasonable under FAR 8.404(d). Also, contract holders have
    been vetted through the traditional solicitation process, and all contract pricing is
    available for viewing through the VA National Acquisition Center’s Contract Catalog
    Search Tool. In addition, use of the schedule contracts absolves VA of the risk of
    acquiring gray market items.

    RAs Resulting in Additional Administrative Burden with no Additional Savings

    During the period between October 1, 2011, and January 31, 2013, there were 8,936 total
    RA awards made, of which only 913 (10.2 percent) were awarded to FSS contract
    holders. We identified 387 of the 913 (42.4 percent) FSS contract holder awards were
    awarded when only one seller bid, and that seller bid once under the RA.

    Our review sample of 236 RAs included 16 FSS awards with $0 reported savings. We
    reviewed those 16 contract files to determine what market research was performed, how
    the target price was developed, who bid on the RA, and who was awarded the RA. We
    found that the target price was based on a quote or published price from an FSS contract
    holder. In some cases the FSS contract holder whose price was the basis of the target
    price was the only seller who bid, and in other cases the FSS contract holder whose price
    was the basis of the target price did not participate in the RA. We reviewed the 16 FSS
    buys with $0 reported savings to determine if there was any benefit to using RAs for the
    procurement.

    Our criteria for this determination include: the same FSS seller identified during market
    research bid on the RA; the FSS seller’s bid was equal to their FSS contract pricing, and;
    no other sellers bid on the RA, which could have created an opportunity for realized
    savings. After reviewing these factors, we determined that 11 of the 16 (68.75 percent)
    buys reviewed met all three of our identified criteria and therefore, VA did not benefit
    from the use of RAs. In such cases, RAs prevent COs from obtaining discounts through
    negotiation, because the FedBid RA tool prevents direct contact between sellers and COs.
    Without direct communication, COs cannot discuss or negotiate obtaining discounts on
    purchase orders (PO) with any and all vendors who offer the goods or services sought on
    an FSS contract. Had the CO procured the supplies or services directly through the FSS,

VA	Office	of	Inspector	General
                               	                                                           Page	15	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions


    the CO would not have incurred the administrative burden associated with the RA
    process, and would have had access to all FSS contract holders (not just the ones
    registered with FedBid) that offered the procured items on an FSS contract.

    Bids on RAs Restricted to the FSS Community May Include Non-FSS Line Items

    Our review of contract files for IFBs restricted to the FSS community, disclosed that the
    offer may include non-FSS open market products. A requirement of all FSS contract
    holders is compliance with the Trade Agreements Act (TAA). Although the open market
    items were identified within the offers, because these items are associated with an FSS
    contract number during an RA, COs may mistakenly consider them TAA compliant. The
    only way we were able to determine that open market items were bid during an RA
    restricted to the FSS community, was when the seller specifically identified which line
    items were not on its FSS contract. Contract file documentation for RAs did not provide
    transparency into which line items were FSS contract items, and which were open market
    items.

    Additional Fee for FSS and NASA SEWP RAs

    Regardless of the procurement method, every purchase from an existing FSS contract
    contains an Industrial Funding Fee (IFF), and every purchase from a NASA SEWP
    contract has a SEWP fee. The IFF is embedded in the FSS contract price, whereas the
    SEWP fee is identified as a separate line item in bids. In addition, as stated on FedBid’s
    website, FedBid’s RA system adds an equal percentage transaction fee to all sellers’ bids
    prior to submission to the buyer. If FedBid receives notice that, due to inclusion of the
    FedBid fee, the selected bidder’s line item pricing is higher than the applicable published
    government contract price (FSS price), FedBid will adjust the fee to ensure the selected
    bidder’s line item pricing does not exceed the selected seller’s applicable published
    government contract pricing. In addition, FedBid’s Fee Structure as outlined in their
    November 12, 2010, pricing quotation to VHA specifies that FedBid receives a
    transactional fee, consisting of not more than 3 percent of the transaction with a
    maximum fee not to exceed $10,000. FedBid also reserves the right to reduce or remove
    its fee so that the awarded price will not exceed the target price.

    We determined that when an RA limited to the FSS community is closed, and the bid
    selected for award is equal to the target price of the RA (resulting in $0 savings), FedBid
    will waive the fee. Aside from the reduced fee options described, we learned through
    discussions with FSS contractors and sellers that FedBid has full discretion over when
    they will apply the full 3 percent fee or not. One seller related that after an RA has
    concluded, the FedBid RA fee may suddenly disappear, or be less than the full 3 percent,
    and they are not sure why.




VA	Office	of	Inspector	General
                               	                                                            Page	16	

 
                                                         Review of the Veterans Health Administration’s
                                                                   Use of Reverse Auction Acquisitions


    When COs use the FedBid RA tool for FSS and SEWP purchases, VHA runs the risk of
    paying two fees: the FedBid RA fee, and the IFF or SEWP fee. In order to avoid paying
    two fees, COs should place FSS orders with FSS contractors directly, or use another
    procurement platform such as with GSA’s RA tool or e-Buy. These GSA procurement
    tools do not charge any fees on top of the IFF.

    During our review of SEWP RAs, we determined that the SEWP fee was included on
    each IFB as a separate line item, and sellers bid their SEWP fee amount along with the
    other line items on each IFB. In order to avoid paying both the SEWP fee and the
    FedBid RA fee as the result of using an RA, orders against an existing SEWP contract
    should be placed using the NASA SEWP Quotes request tool.

    Conclusion

    FSS contracts maintain a priority status in accordance with FAR Subpart 8.002 and
    VAAR Part 808.002. Any time an award is made outside the priority source parameters
    without documented justification, the CO has violated procurement regulations and
    weakened the validity of the priority source programs. During our review we found COs
    did not include justifications in the contract files for issuing an IFB for other than a
    priority source; we also found instances where the FAR and VAAR priority source
    regulations were knowingly ignored.

    During our review we also identified that 387 of 913 (42.39 percent) of RA awards to
    FSS contract holders were the result of a one seller/one bid scenario. Our sample of 236
    contract files included 16 with a reported $0 savings but of the 387 RA awards to contract
    holders, 203 (52 percent) had no cost savings. Documentation shows that the “cost
    savings” was a negative $708,529, meaning they spent this much over their target price.
    This scenario showed that the use of RA held no benefit to VHA, may have limited
    competition among FSS holders, and raises concerns about subjecting the FSS contract
    holder to an RA process in which they must be registered with a private RA vendor to
    receive an order for supplies or services. Depending on the dollar value of the
    procurement COs have the option of ordering directly from the FSS contract holder
    without incurring the time and effort involved by both VHA and the FSS contractor
    holder to engage in an RA. The CO in each case could have negotiated a discount on
    POs, had they not used RAs for the procurement. FAR does not preclude COs from
    contacting FSS vendors to seek price reductions and states that an ordering activity shall
    seek a price reduction if the value of a potential order exceeds the maximum order
    threshold.

    FSS vendors spend considerable resources to obtain and administer an FSS contract. For
    example, FSS vendors must implement compliance systems to ensure that they adhere to
    the various clauses in an FSS contract. The use of RAs in procuring products and
    services from FSS contractors could have a detrimental effect on the FSS Program. FSS
    contractors may view the process to obtain an FSS contract and comply with its
    provisions to be overly burdensome and costly if they are subject to the use of RAs. In
    accordance with FAR 8.404(d), FSS contract prices have already been negotiated and

VA	Office	of	Inspector	General
                               	                                                           Page	17	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions


    determined to be fair and reasonable. These prices are published and it creates an unfair
    competitive advantage for non-FSS vendors who compete with knowledge of the FSS
    prices, particularly when these prices are used as the target price.

    Finally, we found that when using the FedBid RA tool for FSS and SEWP transactions,
    VHA is paying both the IFF or SEWP fee and the FedBid RA fee, unless it is waived by
    FedBid. To avoid paying additional fees above the IFF or SEWP fee, COs should not use
    the FedBid RA tool for FSS or SEWP transactions. We recommend using GSA’s RA
    tool for FSS orders only when RA is determined to be the best procurement method for
    such orders, in order to avoid paying the FedBid RA fee in addition to IFF. For SEWP
    orders against an existing SEWP contract, we recommend using the established NASA
    SEWP Quote request tool in order to avoid paying an RA fee in addition to the SEWP
    fee.

    Objective 5: Determine whether VHA is procuring gray market items
    through RAs.
    The “gray market” is made up of genuine goods sold through unauthorized channels in
    direct competition with authorized distributors. Because gray market items are sold by
    companies who are not authorized by the manufacturer to sell their products, gray market
    items do not have any warranty coverage. To determine if the use of RAs increases the
    risk of acquiring “gray market” items, we reviewed 20 awarded buys for supplies in
    response to open market IFBs and the selected sellers’ bids. Our sample was limited to
    open market purchases because the NASA SEWP, FSS, and GSA seller communities
    consist of contract holders who are either the manufacturer or have already undergone
    authorized distributor checks prior to contract award. Warranty provisions and other
    contract provisions protecting the Government’s interest and patient safety are included
    in these contracts.

    When purchasing products through unauthorized distributors, particularly for technical
    products, there is no manufacturer’s warranty. Manufacturers will only warrant their
    product if purchased from an authorized distributor. Also the buying entity cannot
    guarantee that the product is new, meets quality standards, and has not been refurbished.
    These issues are extremely important when buying medical equipment.

    The 20 sample IFBs contained two buy terms, Authorized Distributor and Equipment
    Condition which limit sellers to manufacturers or authorized distributors. In response to
    the IFB, each seller must acknowledge that they are an authorized distributor for the line
    items of the procurement. This is essentially a self-certification process because no other
    certification is required, e.g., from the manufacturer, and based on our review of the
    contract files, no verification by the CO is performed.

    To determine if each of the selected sellers from the sample accurately disclosed their
    authorized distributor status, we reviewed published distributor lists of manufacturers,
    and contacted manufacturers to verify authorized distributors. Through these review


VA	Office	of	Inspector	General
                               	                                                            Page	18	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions


    methods, we determined that only 12 of the 20 open market buys (60 percent) reviewed
    were awarded to authorized distributors of the respective manufacturers’ products.

    The selected sellers for Samples 5 and 13 sold a pair of brand name scissors. We
    contacted the manufacturer and learned that the particular pair of scissors purchased by
    the VA, was a direct purchase product only, meaning that the manufacturer only sells
    those scissors directly to end users. Therefore, the selected seller was not an authorized
    distributor for that particular product.

    The selected seller for Sample 7 bid line items from seven different manufacturers. We
    only received responses from four of the seven manufacturers. Of those four only one
    verified the selected seller as an authorized distributor of their products.

    We were unable to locate a published distributor list or successfully contact the
    manufacturers of the supplies purchased in Samples 4, 6, and 12. Therefore, we are
    unable to verify if the selected sellers are authorized distributors of procured supplies.

    Conclusion

    Although the terms included in an RA IFB appear to preclude unauthorized distributors
    from being eligible to participate in the RA, the terms simply require each seller to self-
    certify their qualification as an authorized distributor of the offered line items. Our
    review determined that self-certification is not adequate to ensure only authorized
    distributors are participating in RAs. We recommend implementing a system that
    ensures only authorized distributors of products are selected for award.

    Summary
    We concluded that COs are not maintaining adequate contract records in eCMS,
    preventing the determination of a fair and competitive RA procurement. Despite specific
    instructions in the VA policy and implementing VHA SOP for using RAs, certain required
    documentation is not included within each contract file. Only 16 of the reviewed 236
    sample buys (6.78 percent) had sufficient documentation in eCMS. The lack of proper
    documentation of RAs raises serious concerns about the integrity of the procurement
    process.

    We also concluded that the mandatory use of RAs ignores priority source requirements as
    set forth by FAR Subpart 8.002 and VAAR Part 808.002. In order to use the FedBid RA
    tool, FSS contractors are required to register with the website if they want an opportunity
    to bid on RAs in order to sell to the Government with whom they already have negotiated
    contracts. However, if FSS contractors refuse to register for RAs, COs will seek to fulfill
    the procurement with an open market RA. This practice is in direct violation of VAAR
    808.002 and COs should procure schedule items directly from priority sources, such as the
    FSS, when they are available.



VA	Office	of	Inspector	General
                               	                                                            Page	19	

 
                                                             Review of the Veterans Health Administration’s
                                                                       Use of Reverse Auction Acquisitions


    Our review of VHA’s use of RAs found that the established method for calculating
    reported savings from the use of RAs is completely unreliable. The target price is not a
    reliable measure for calculating the reported savings due to several factors: no target price
    basis; the target price is not equal to the IGE; target price is for the full contract value but
    the award price represents partial funding, and; changes to the target price during a repost
    are not documented in eCMS. VHA does not independently review and validate savings
    reported by the RA database, and because the VA has not implemented internal controls,
    the resulting reported savings cannot be relied upon as a valid measure to determine if
    RAs save the VA money. We recommend developing a savings calculation truly
    representative of effective RA techniques. A system of internal controls should be
    implemented that will provide a more reliable and transparent savings calculation.

    We conclude that using RAs to compete POs among FSS contract holders results in
    additional administrative burden with no additional savings, limits competition due to the
    requirement to be registered with FedBid, can result in an additional fee beyond the IFF,
    and at times is a violation of priority sources requirements. We found that RAs did not
    promote competition among FSS contract holders as 387 of 913 (42.39 percent) RA
    awards to FSS holders only consisted of one seller submitting a bid. We also found that
    POs awarded to NASA SEWP contract holders also included additional fees for using the
    FedBid RA tool beyond the SEWP fee.

    Finally, we concluded that sellers are only responsible for self-certifying that they are
    authorized distributors for line item products on an IFB which resulted in VA purchasing
    gray market items from non-authorized sellers. We found that COs are not verifying
    authorized distributor status, and ultimately procuring gray market items. COs should be
    required to verify sellers are authorized distributors of manufacturers’ products.




VA	Office	of	Inspector	General
                               	                                                               Page	20	

 
                                                          Review of the Veterans Health Administration’s
                                                                    Use of Reverse Auction Acquisitions


                                  Recommendations
    We recommend that the Under Secretary for Health:

      1.	 Restrict the use of RAs to those procurements in which there is sufficient
          justification that it is in the best interest of the Government, particularly when the
          items or services to be procured are on existing FSS or other national contracts,
          including SEWP and other Government Wide Acquisition Contracts.

      2.	 Require assurance that all COs follow the contract file documentation requirements
          stated in Federal Acquisition Regulation (FAR) 4.8, VA’s Updated Policy and
          Procedures for Using Reverse Auctions dated April 3, 2012, and VHA SOP for
          Commercial Supply and Service Procurements dated May 1, 2012.

      3.	 Require that all variances between target price and awarded price be fully explained
          and documented in the contract file.

      4.	 Develop and implement a system of internal controls to ensure that the
          April 3, 2012, VA policy and the May 1, 2012, VHA SOP, and any revisions of
          those policies are being followed.

      5.	 Develop and implement a policy to ensure that all reported savings are
          independently reviewed and reconciled by an internal VHA review process that is
          external to the buying office. The policy should target RAs that result in significant
          savings to ensure that the award price does not reflect partial funding.

      6.	 Ensure the use of priority sources as detailed in VAAR 808.002 such as the FSS,
          regardless of whether or not RA is the procurement method. If the RA does not
          generate adequate competition from priority sources a different procurement
          strategy such as GSA’s e-Buy should be utilized to encourage adequate
          competition.

      7.	 Consider the use of GSA’s RA tool for FSS orders only when RA is determined to
          be the best procurement method, in order to avoid paying an RA fee in addition to
          the IFF.

      8.	 Use the NASA SEWP Quote request tool for SEWP orders against existing SEWP
          contracts, in order to avoid paying an RA fee in addition to the SEWP fee.

      9.	 Implement a procurement requirement that will ensure only authorized distributors
          of products are eligible to compete and be selected for award and that includes a
          penalty for making false representations.

      10. Change the May 1, 2012, VHA SOP to be consistent with the April 3, 2012, VA
          policy which it implements, and update the SOP in conjunction with the policy
          implemented in response to this report.
      11. Removing the language which mandates the use of RAs from the VHA SOP.
VA	Office	of	Inspector	General	
                              	                                                             Page	21	
 
                                                                                                          Review of the Veterans Health Administration’s
                                                                                                                    Use of Reverse Auction Acquisitions
 
                                                                                                                                        Exhibit A
                                                Sample Categories and Selection Methods
      Sample                Sample Group            Sample                                Sample Selection Method
      Number                                         Size
                                                                Random selection of 10 awarded open market buys for medical surgical
    1-10           Open Market Sample              10           supplies
                                                                Random selection of 10 awarded GSA contract buys for medical surgical
    11-20          GSA Contract Sample             10           supplies
    21-30          NASA SEWP Sample                10           Random selection of 10 awarded NASA SEWP buys
    31-40          FSS Canceled Sample             10           Canceled FSS buys with bids ranked from most bids to least number of bids
                   FSS Single Bid-Positive                      Top 10 FSS buys awarded to a single bid, resulting in positive reported savings
    41-50          Sample                          10           ranked from highest to lowest savings
                   FSS Single Bid-Negative                      Top 10 FSS buys awarded to a single bid, resulting in negative reported savings
    51-60          Sample                          10           ranked from lowest to highest savings
                   FSS Single Bid-Breakeven                     Random selection of 10 FSS buys awarded to a single bid which generated $0
    61-70          Sample                          10           reported savings
    71-114         FSS Repost Sample               43*          Random selection of 43 FSS buys which were reposted despite having bids
    115-118        FSS Services Sample             4            100% of buys for services using the FSS Contract Vehicle
                   All Awarded Buys-Positive                    Top 39 buys awarded with positive reported savings and random selection of 11
    119-168        Savings Sample                  50           awarded buys with positive savings
                   All Awarded Buys-Negative                    Top 25 buys awarded with negative reported savings and random selection of
    169-203        Savings Sample                  35           10 awarded buys with negative reported savings
                   All Awarded Buys-Breakeven
    204-238        Sample                          34*          Random selection of 34 awarded buys which generated $0 reported savings

*Through our review we determined that 2 selected samples would not be reviewed; however, we did not change the existing numbers for the
remaining samples.
 




VA	Office	of	Inspector	General
                               	                                                                                                              Page	22	

 
                                                                                                              Review of the Veterans Health Administration’s
                                                                                                                        Use of Reverse Auction Acquisitions

                                                                                                                                           Exhibit B
                                                                                                                                          Page 1 of 2
                                                            Summary of Report Statistics

                                                                   Savings Statistics
                                                                                        Percentage
                                                    Issue                               of Sample        Sample Size
                           There is no documented basis for the target price,            60.56%      Limited to 213
                           causing the resulting savings to not be transparent.                      awarded sample buys
                           The target price is a different value than the                12.21       Limited to 213
                           documented IGE in the contract file.                                      awarded sample buys
                           The target price represents the full contract period          23.91       Limited to 92
                           including all options; however the award price                            awarded samples with
                           represents partial funding.                                               positive savings
                                                                                         14.94       Limited to 154
                           The target price is changed during a repost.                              reposted sample buys
                           The target price is based on a vendor quote, but once it      26.67       Limited to 60
                           is posted to the FedBid RA tool, a different vendor                       awarded sample buys
                           with a higher bid wins the RA.                                            with negative savings


                                                                FSS Impact Statistics
                                                                                    Percentage
                                                     Issue                           of Sample           Sample Size
                           The CO identifies an FSS source during market              14.67%         Limited to 75 open
                           research, but posts the buy as open market                                market sample buys
                           FSS buys where the target price is based on an FSS         68.75
                           contractor’s pricing, and the same vendor is the only                     Limited to 16 FSS
                           seller bidding, and wins the RA at the same price                         buys which broke
                           generating $0 savings.                                                    even with a single bid



VA	Office	of	Inspector	General
                               	                                                                                                                  Page	23	

 
                                                                                                               Review of the Veterans Health Administration’s
                                                                                                                         Use of Reverse Auction Acquisitions

                                                                                                                                            Exhibit B
                                                                                                                                           Page 2 of 2
                                                             Summary of Report Statistics

                                                                     Policy Statistics
                                                                                         Percentage
                                                     Issue                               of Sample        Sample Size
                           Market research is not documented.                             36.86%      All 236 sample buys
                           There are zero RA documents in the contract file, such          14.83      All 236 sample buys
                           as buy details, bid details, or buy package.
                           The FedBid RA fee documentation is not included                85.45       Limited to 213
                           within the contract file.                                                  awarded sample buys
                           Justification for posting an RA to the open market is          77.33       Limited to 75 open
                           not documented in eCMS.                                                    market sample buys
                                                                                          12.50       Limited to 120
                           Justification for awarding a buy to a seller that did not                  sample buys with
                           have the lowest bid is not documented in eCMS.                             more than 1 seller
                           The CO designated the RA as “exact match only.”                13.98       All 236 sample buys
                           eCMS documentation is sufficient.                               6.78       All 236 sample buys
                           The reported savings is not documented in eCMS.                98.59       Limited to 213
                                                                                                      awarded sample buys




VA	Office	of	Inspector	General
                               	                                                                                                                   Page	24	

 
                                          Review of the Veterans Health Administration’s
                                                    Use of Reverse Auction Acquisitions

                                                                   Appendix A

         Under Secretary for Health Comments and VHA Action Plan




VA	Office	of	Inspector	General
                               	                                            Page	25	

 
                                   Review of the Veterans Health Administration’s
                                             Use of Reverse Auction Acquisitions

                                                            Appendix A




 


VA	Office	of	Inspector	General
                               	                                     Page	26	

 
                                   Review of the Veterans Health Administration’s
                                             Use of Reverse Auction Acquisitions

                                                            Appendix A




 


VA	Office	of	Inspector	General
                               	                                     Page	27	

 
                                   Review of the Veterans Health Administration’s
                                             Use of Reverse Auction Acquisitions

                                                            Appendix A




 


VA	Office	of	Inspector	General
                               	                                     Page	28	

 
                                   Review of the Veterans Health Administration’s
                                             Use of Reverse Auction Acquisitions

                                                            Appendix A




VA	Office	of	Inspector	General
                               	                                     Page	29	

 
                                                   Review of the Veterans Health Administration’s
                                                             Use of Reverse Auction Acquisitions

                                                                             Appendix B
 
                           Office of Inspector General
                       Contact and Staff Acknowledgements
 
 
    OIG Contact              Maureen Regan
    Acknowledgments          Christina Ogonowski
                             Karen Summers
                             Michael Grivnovics




VA	Office	of	Inspector	General
                               	                                                     Page	30	

 
                                                      Review of the Veterans Health Administration’s
                                                                Use of Reverse Auction Acquisitions
 
 
                                                                              Appendix C
 
                                   Report Distribution
 
 
    VA Distribution
    Office of the Secretary
    Veterans Health Administration
    Veterans Benefits Administration
    National Cemetery Administration
    Assistant Secretaries
    Office of General Counsel
 
 
    Non-VA Distribution
    House Committee on Veterans’ Affairs 

    House Committee on Appropriations, Subcommittee on Military Construction, 

       Veterans Affairs, and Related Agencies
    House Committee on Oversight and Government Reform
    Senate Committee on Veterans’ Affairs
    Senate Committee on Appropriations, Subcommittee on Military Construction,
       Veterans Affairs, and Related Agencies
    Senate Committee on Homeland Security and Governmental Affairs
    National Veterans Service Organizations
    Government Accountability Office
    Office of Management and Budget
 
 
    This report is available at www.va.gov/oig.




VA	Office	of	Inspector	General
                               	                                                        Page	31	

